Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Justice Programs Grant to Administer the Victims of Crime Assistance Program for the Alabama Department of Economic and Community Affairs

GR-40-03-004


December 2002
Office of the Inspector General


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grant numbers 1999-VA-GX-0001, 2000-VA-GX-0001, and 2001-VA-GX-0001, awarded by the U.S. Department of Justice, Office of Justice Programs (OJP) to the Alabama Department of Economic and Community Affairs (grantee). 

The purpose of these grants was to reimburse subgrantees for expenses related to participation in the Victims of Crime Assistance Program. Between February 11, 1999, and August 31, 2002, the grantee was awarded a total of $15,559,000.  

We tested accounting records to determine if reimbursement claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.

Our audit revealed that the grantee did not:  

Expend funds within a timely manner after they were drawn down, resulting in $22,568 in lost interest earnings.
Submit timely and accurate Financial Status Reports 
to OJP.

These items are discussed in detail in the Findings and Recommendations section of the report.  The deficiencies did not result in questioned costs or recommended funds to better use, but we identified $22,568 in enhanced revenues.1  Our audit objectives, scope and methodology appear in Appendix I.



Footnotes

See Appendix II for a schedule of dollar-related findings.